          OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



      ADMINISTRATIVE COSTS
         CLAIMED BY THE
    NEW HAMPSHIRE DISABILITY
     DETERMINATION SERVICES

     May 2005    A-01-05-15012




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM
Date:   May 27, 2005                                                         Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         Boston

From:   Inspector General

Subject: Administrative Costs Claimed by the New Hampshire Disability Determination Services
        (A-01-05-15012)


        For our audit of the Fiscal Year (FY) 2001, 2002 and 2003 administrative costs claimed
        by the New Hampshire Disability Determination Services (NH-DDS), our objectives
        were to:
                 evaluate the NH-DDS’ internal controls over the accounting and reporting of
                  administrative costs,
                 determine whether costs claimed by the NH-DDS were allowable and funds were
                  properly drawn, and
                 assess limited areas of the general security controls environment.

        BACKGROUND
        Disability determinations under the Social Security Administration’s (SSA) Disability
        Insurance and Supplemental Security Income programs are performed by disability
        determination services (DDS) in each State or other responsible jurisdiction, according
        to Federal regulations.1 Each DDS is responsible for determining claimants’ disabilities
        and assuring that adequate evidence is available to support its determinations. To
        make proper disability determinations, each State agency is authorized to purchase
        consultative medical examinations and medical evidence of record from the claimants’
        physicians or other treating sources. SSA pays the State agency for 100 percent of
        allowable expenditures using Form SSA-4513. (For additional background information,
        see Appendix B of this report.)




        1
            20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et. seq.
Page 2 – Manuel J. Vaz



RESULTS OF REVIEW
Except for the contract cost issue discussed below, we determined that costs claimed
on Forms SSA-4513 for the period October 1, 2000 through September 30, 2003 were
allowable and properly allocated, and the system of internal controls was effective.
Also, the aggregate of the SSA funds drawn down agreed with total expenditures as
reported by NH-DDS for disability determinations in FYs 2001 through 2003. (See
Appendix C for costs reported on Forms SSA-4513.)

CONTRACT COSTS

The NH-DDS claimed unallowable contract costs of $28,654 for FYs 2001 through
2003. These unallowable costs were incurred because contractors for medical
transcription services billed at rates higher than the agreed upon contract rate.
Specifically, for two contracts:

      One transcription service billed the DDS at a rate of $0.155 per line of
       transcription (which was the rate in the prior contract). However, the current
       contract called for a rate of $0.135 per line of transcription. The different rate
       caused $25,986 to be charged improperly.
      One transcription service billed the DDS at a rate of $0.118 per line of
       transcription (which was the rate in a prior contract bid). However, the current
       contract called for a rate of $0.100 per line of transcription. The different rate
       caused $2,668 to be charged improperly.

The DDS reviewed, approved and paid the bills for the transcription services without
verifying the billed rate to the contract. As a result, the NH-DDS claimed unallowable
contractor costs in FYs 2001 through 2003 as shown in the table below.


                         Fiscal Year           Unallowable Costs
                                                    Claimed
                             2001                     $2,802
                             2002                    $12,928
                             2003                    $12,924
                             Total                   $28,654
Page 3 – Manuel J. Vaz


CONCLUSIONS AND RECOMMENDATION
Generally, NH-DDS had effective internal controls over the accounting and reporting of
administrative costs. However, NH-DDS claimed unallowable contract costs of
$28,654. Therefore, in our draft report, we recommended that SSA instruct the
NH-DDS to return $28,654 for contract costs that exceeded the rate in the approved
contracts.

AGENCY COMMENTS
SSA and the New Hampshire Department of Education agreed with our
recommendation. The DDS refunded the $28,654 to SSA in February 2005.
Additionally, a corrective action plan has been implemented to ensure the DDS verifies
the terms of contracts before invoices are approved for payment. (See Appendices D
and E for the full text of the comments from SSA and the New Hampshire Department
of Education, respectively.)




                                                  S
                                                  Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope, and Methodology

APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513—State
             Agency Reports of Obligations for SSA Disability Programs

APPENDIX D – Agency Comments

APPENDIX E – New Hampshire Department of Education Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
Act        Social Security Act
C.F.R.     Code of Federal Regulations
DDS        Disability Determination Services
DI         Disability Insurance
EDP        Electronic Data Processing
FY         Fiscal Year
NH-DDS     New Hampshire Disability Determination Services
OMB        Office of Management and Budget
Pub. L.    Public Law
SSA        Social Security Administration
SSA-4513   State Agency Report of Obligations for SSA Disability Programs
SSI        Supplemental Security Income
Treasury   Department of Treasury
U.S.C.     United States Code
                                                                      Appendix B

Background, Scope, and Methodology
BACKGROUND

The Disability Insurance (DI) program was established in 1954 under Title II of the
Social Security Act (Act). The DI program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. In 1972, Congress enacted
the Supplemental Security Income (SSI) program under Title XVI of the Act. The SSI
program provides benefits to financially needy individuals who are aged, blind, or
disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State or other responsible jurisdiction, in
accordance with Federal regulations.1 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring that adequate evidence
is available to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase medical examinations, x-rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations2 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990.3 An advance or reimbursement for costs under
the program must comply with the Office of Management and Budget’s (OMB)
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments. At the
end of each quarter of the Fiscal Year (FY), each DDS submits a State Agency Report
of Obligations for SSA Disability Programs (Form SSA-4513) to account for program
disbursements and unliquidated obligations.




1
    20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et. seq.
2
    31 C.F.R. Part 205.
3
    Pub. L. No. 101-453, 31 U.S.C. § 6503.



                                                   B-1
SCOPE

To accomplish our objectives, we reviewed the administrative costs New Hampshire
Disability Determination Services (NH-DDS) reported on its Forms SSA-4513 for
FYs 2001, 2002, and 2003. For the periods reviewed, we obtained evidence to
evaluate recorded financial transactions and determine whether they were allowable
under OMB Circular A-87, and appropriate, as defined by SSA’s Program Operations
Manual System.

We also:
      Reviewed applicable Federal regulations and pertinent parts of Program
       Operations Manual System DI 39500, DDS Fiscal and Administrative
       Management, and other instructions pertaining to administrative costs incurred
       by NH-DDS and draw down of SSA funds covered by the Cash Management
       Improvement Act.
      Interviewed staff at NH-DDS and the SSA Regional Office.
      Evaluated and tested internal controls regarding accounting and financial
       reporting and cash management activities.
      Verified the reconciliation of official State accounting records to the administrative
       costs reported by NH-DDS on Forms SSA-4513 for FYs 2001, 2002 and 2003.
      Examined the administrative expenditures (personnel, medical service, and all
       other non-personnel costs) incurred and claimed by NH-DDS for FYs 2001,
       2002 and 2003 on Forms SSA-4513.
      Examined the indirect costs claimed by NH-DDS for FYs 2001, 2002 and 2003
       and the corresponding Cost Allocation Plans.
      Compared the amount of SSA funds drawn to support program operations to the
       allowable expenditures reported on Forms SSA-4513.
      Reviewed the State of New Hampshire Single Audit reports issued in
       2001, 2002 and 2003.
      Conducted limited general control testing—which encompassed reviewing the
       physical access security within the DDS.

The electronic data used in our audit was sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling it with the
costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at the NH-DDS in Concord, New Hampshire and the Office of
Audit in Boston, Massachusetts from September 2004 through February 2005. We
conducted our audit in accordance with generally accepted government auditing
standards.




                                            B-2
METHODOLOGY

Our sampling methodology encompassed the four general areas of costs as reported on
Forms SSA-4513: (1) personnel, (2) medical, (3) indirect, and (4) all other
non-personnel costs. We obtained computerized data from NH-DDS for FYs 2001,
2002, and 2003 for use in statistical sampling.

Personnel Costs

We sampled 39 employee salary items from 1 randomly selected pay period in
FY 2003. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure the NH-DDS correctly paid
employees and adequately documented these payments.

We also sampled 50 randomly selected medical consultant costs from FY 2003. We
determined whether sampled costs were reimbursed properly and ensured the selected
medical consultants were licensed.

Medical Costs

We sampled a total of 150 medical evidence of records and consultative examination
records (50 items from each FY) using a proportional random sample. We determined
whether sampled costs were properly reimbursed.

Indirect Costs

We reviewed the indirect cost base and computations used to determine those costs for
reimbursement purposes. Our objective was to ensure SSA reimbursed NH-DDS in
compliance with the State Cost Allocation Plan. We analyzed the approved rate used
for each quarter, ensuring the indirect cost rate changed when the Indirect Cost Rate
Agreement was modified. We reviewed the documentation and traced the base
amounts to Forms SSA-4513 for the indirect cost computation components. We
determined whether the approved rate used was a provisional, predetermined, or final
rate.

All Other Non-Personnel Costs

We stratified all other non-personnel costs into 10 categories: (1) Occupancy,
(2) Contracted Costs, (3) Electronic Data Processing (EDP) Maintenance,
(4) New EDP Equipment/Upgrades, (5) Equipment Purchases and Rental,
(6) Communications, (7) Applicant Travel, (8) DDS Travel, (9) Supplies, and
(10) Miscellaneous. We selected a stratified random sample of 50 items from each
FY based on the percentage of costs in each category (excluding Occupancy) to total
costs. We also performed a 100 percent review of Occupancy expenditures.




                                        B-3
                                                        Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations for Social Security Administration
Disability Programs
         New Hampshire Disability Determination Services

            FISCAL YEARS (FY) 2001, 2002 and 2003 COMBINED
                                     UNLIQUIDATED         TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS       OBLIGATIONS
Personnel             $7,082,740       $29,334          $7,112,074
Medical               $2,417,852            $0          $2,417,852
Indirect               $619,784             $0           $619,784
All Other             $1,121,933            $0          $1,121,933
TOTAL                $11,242,309       $29,334         $11,271,643

                               FY 2001
                                     UNLIQUIDATED          TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS       OBLIGATIONS
Personnel             $2,159,270           $0           $2,159,270
Medical                $713,614            $0            $713,614
Indirect               $165,901            $0            $165,901
All Other               $360,733           $0            $360,733
TOTAL                 $3,399,518           $0           $3,399,518

                               FY 2002
                                     UNLIQUIDATED          TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS       OBLIGATIONS
Personnel             $2,407,622           $0           $2,407,622
Medical                $869,022            $0            $869,022
Indirect               $240,098            $0            $240,098
All Other               $392,555           $0            $392,555
TOTAL                 $3,909,297           $0           $3,909,297
                               FY 2003
                                     UNLIQUIDATED         TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS       OBLIGATIONS
Personnel             $2,515,848       $29,334          $2,545,182
Medical                $835,216             $0           $835,216
Indirect               $213,785             $0           $213,785
All Other               $368,645            $0           $368,645
TOTAL                 $3,933,494       $29,334          $3,962,828
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      April 26, 2005                                                      Refer To: S2D1G5/DI-16
                                                                                        A-2005-6677

To:        Patrick P. O’Carroll, Jr.
           Inspector General
           Office of Inspector General

From:      Manuel J. Vaz /s/
           Regional Commissioner
           Boston

Subject:   Administrative Costs Claimed by the New Hampshire Disability Determination Services
           (A-01-05-15012) (Your memo dated 3/30/05) --REPLY


           We have reviewed your draft report of the administrative costs audit on the New Hampshire
           Disability Determination Services (NH DDS) for Fiscal Years (FYs) 2001 through 2003.

           We are pleased to confirm that except for one area, the costs claimed on forms SSA-4513 for
           the period October 1, 2000 through September 30, 2003 were allowable and properly
           allocated, and the system of internal controls in the NH DDS was effective. Further, the state
           of NH’s draw down of SSA funds agreed with the total expenditures reported by the NH DDS
           in FYs 2001 through 2003.

           The NH DDS claimed unallowable transcription contract costs of $28,654 for FYs 2001
           through 2003 because the rate used to determine costs exceeded the agreed upon contract rate.
           When this was reported at the audit closing, the DDS immediately contacted the contractor
           and received a full refund, which was sent to SSA in February 2005. Further, SSA-4513
           revisions for FYs 2001 through 2003 were completed on March 3, 2005.

           We concur with this draft report and feel all audit findings have been resolved.

           We thank you for the opportunity to comment on this draft report.
                                                                      Appendix E

New Hampshire Department of Education
Comments
From: Bieniek, Michael [mailto:MBieniek@ed.state.nh.us]
Sent: Friday, May 13, 2005 10:48 AM
To: Mazzola, David
Subject: Correction Action Plan

The New Hampshire Department of Education agrees with the conclusions and
recommendations of the Social Security Administration, Office of the Inspector General
Audit report. Since the discovery of unallowable contract costs in the amount of
$28,654, the Internal Auditor of the Department of Education has crafted and
implemented a corrective action plan that addresses the root cause of the
overpayments and will ensure a better internal control for processing payables for the
future. NH-DDS now follows new procedures and controls.

The corrective action plan strengthens the approval of invoices for payment and the
verification of dollar amounts and terms of contract before invoices are approved for
payment. A procedure distinguishes invoices which will require an original signature
from the administrator of NH-DDS as opposed to those which can be approved with a
signature stamp.

An original signature from the Administrator of NH-DDS will be required on all invoices
pertaining to contracts and encumbrances. A procedure is established to inform the
administrator that the terms and dollar amounts of the invoice have been confirmed
against the terms and dollar amounts of the contract and/or encumbrances. An original
signature from the administrator of NH-DDS is also required on all invoices for items
with an individual dollar amount of $100.00 or more. A stamped signature for routine
expenditures, such as invoices pertaining to the rental of copiers, paper supplies, toner
etc., …will be accepted provided the individual who stamped the invoice also initials and
dates the invoice. All invoices are coded with Fund-Agency-Organization-Class-Object
Code, CAN # (if known), the correct vendor code and the correct encumbrance and/or
contract number.

Further, the NH-DDS received refunds from the two contract vendors in an amount
equal to the overpayments. The Department of Education refunded the $28,654 to SSA
in February 2005.
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG CONTACTS

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807


ACKNOWLEDGMENTS

In addition to those named above:

   Frank Salamone, Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-05-015012.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
